      Written Testimony of H. David Kotz
            Inspector General of the
      Securities and Exchange Commission




             Before the U.S. Senate
Committee on Banking, Housing and Urban Affairs

        Wednesday, September 22, 2010
                 10:00 a.m.
                                       Introduction

       Thank you for the opportunity to testify before this Committee on the subject of

“Oversight of the SEC’s Inspector General’s Report on the ‘Investigation of the SEC’s

Response to Concerns Regarding Robert Allen Stanford’s Alleged Ponzi Scheme’ and

Improving SEC Performance.” I appreciate the interest of the Chairman, the Ranking

Member, as well as the other members of the Committee, in the Securities and Exchange

Commission (SEC or Commission) and the Office of Inspector General (OIG). In my

testimony, I am representing the OIG, and the views that I express are those of my

Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and

the oversight efforts we have undertaken during the past few years. The mission of the

Office of Inspector General is to promote the integrity, efficiency and effectiveness of the

critical programs and operations of the SEC. The SEC Office of Inspector General

includes the positions of the Inspector General, Deputy Inspector General, Counsel to the

Inspector General, and has staff in two major areas: Audits and Investigations.

       Our audit unit conducts, coordinates and supervises independent audits and

evaluations related to the Commission’s internal programs and operations. The primary

purpose of conducting an audit is to review past events with a view toward ensuring

compliance with applicable laws, rules and regulations and improving future

performance. Upon completion of an audit or evaluation, the OIG issues an independent

report that identifies any deficiencies in Commission operations, programs, activities or

functions and makes recommendations for improvements in existing controls and




                                             1
procedures.

       The Office’s investigations unit responds to allegations of violations of statutes,

rules and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The investigations unit

conducts thorough and independent investigations into allegations received in accordance

with the applicable Quality Standards for Investigations. Where allegations of criminal

conduct are involved, we notify and work with the Department of Justice and the Federal

Bureau of Investigation as appropriate.

                                      Audit Reports


       Over the past 2½ years since I became the Inspector General of the SEC, our audit

unit has issued numerous reports involving matters critical to SEC programs and

operations and the investing public. These have included an examination of the

Commission’s oversight of Bear Stearns and the factors that led to its collapse, an audit

of the SEC Division of Enforcement’s (Enforcement’s) practices related to naked short

selling complaints and referrals, a review of the SEC’s bounty program for

whistleblowers, and an analysis of the SEC’s oversight of credit rating agencies. In

addition, following a comprehensive investigative report related to the Madoff Ponzi

scheme in which our Office identified systematic breakdowns in the manner in which the

SEC conducted its examinations and investigations (discussed in more detail below), we

performed three comprehensive reviews providing the SEC with 69 specific and concrete



                                             2
recommendations to improve the operations of both Enforcement and the Office of

Compliance Inspections and Examinations (OCIE).

                                   Investigative Reports

       The Office’s investigations unit has also conducted numerous comprehensive

investigations into significant failures by the SEC in accomplishing its regulatory

mission, as well as investigations of allegations of violations of statutes, rules and

regulations, and other misconduct by Commission staff members and contractors.

Several of these investigations involved senior-level Commission staff and represent

matters of great concern to the Commission, Congressional officials and the general

public. Where appropriate, we have reported evidence of improper conduct and made

recommendations for disciplinary actions, including removal of employees from the

Federal service, as well as recommendations for improvements in agency policies,

procedures and practices.

       Specifically, we have issued investigative reports regarding a myriad of

allegations, including claims of failures by Enforcement to pursue investigations

vigorously or in a timely manner, improper securities trading by Commission employees,

conflicts of interest by Commission staff members, unauthorized disclosure of non-public

information, whistleblower allegations of contract fraud, preferential treatment given to

prominent persons, retaliatory termination, perjury by supervisory Commission attorneys,

failure of SEC attorneys to maintain active bar status, falsification of federal documents,

and the misuse of official position, government resources and official time. In August

2009, we issued a 457-page report of investigation analyzing the reasons why the SEC

failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. More recently, we issued



                                              3
a thorough and comprehensive report of investigation regarding the history of the SEC’s

examinations and investigations of Robert Allen Stanford’s (Stanford’s) $8 billion

alleged Ponzi scheme. The report is discussed in detail below and is the subject of this

hearing.

                       Commencement of Stanford Investigation

       On October 9, 2009, I received a letter from the Ranking Member of this

Committee, the Honorable Richard Shelby, and the Honorable David Vitter requesting a

comprehensive investigation of the handling of the SEC’s investigation into Robert Allen

Stanford and his various companies, including the history of all the SEC’s investigations

and examinations regarding Stanford. On October 13, 2009, the OIG opened our

investigation into the Stanford matter.

                             Document and E-mail Review

       Between October 13, 2009 and February 16, 2010, the OIG investigative team

made numerous requests to the SEC’s Office of Information Technology (OIT) for the

e-mails of current and former SEC employees for various periods of time pertinent to the

investigation. The e-mails were received, loaded onto computers with specialized search

tools and searched on a continuous basis throughout the course of our investigation.

       In all, OIT provided e-mails for a total of 42 current and former SEC employees

for various time periods pertinent to the investigation, ranging from 1997 to 2009. We

estimate that we obtained and searched over 2.7 million e-mails during the course of the

investigation.

       On October 27, 2009, we sent comprehensive document requests to both

Enforcement and OCIE specifying the documents and records we required to be produced




                                            4
for the investigation. We carefully reviewed and analyzed the information we received as

a result of our document production requests. These documents included all records

relating to the SEC’s Fort Worth office’s examinations in 1997 of Stanford Group

Company’s Broker-Dealer, in 1998 of Stanford Group Company’s Investment Advisor,

in 2002 of Stanford Group Company’s Investment Advisor, and in 2004 of Stanford

Group Company’s Broker-Dealer. These also included investigative records relating to

the Fort Worth office’s 1998 inquiry regarding Stanford Group Company and its

investigation of Stanford Group Company, which was opened in 2006.

       We also sought and reviewed documents from the Financial Industry Regulatory

Authority (FINRA), including documents concerning communications between FINRA

or its predecessor, the National Association of Securities Dealers (NASD), and the SEC

concerning Stanford, and FINRA documents pertaining to the SEC’s examinations and

inquiries regarding Stanford.

                                Testimony and Interviews

       The OIG conducted 51 testimonies and interviews of 48 individuals with

knowledge of facts or circumstances surrounding the SEC’s examinations and/or

investigations of Stanford and his firms. I personally led the questioning in the testimony

and interviews of the witnesses in this investigation.

       Specifically, we conducted on-the-record and under oath testimony of 28

individuals, including all of the relevant examiners and investigators who worked on SEC

matters relating to Stanford. We also conducted interviews of 20 other witnesses,

including former SEC employees, whistleblowers, victims of the alleged Ponzi scheme,

and officials from the Texas State Securities Board.




                                             5
                  Issuance of Comprehensive Report of Investigation

       On March 31, 2010, we issued to the Chairman of the SEC a comprehensive

report of our investigation in the Stanford matter containing over 150 pages of analysis

and 200 exhibits. The report of investigation detailed all of the SEC’s examinations and

investigations of Stanford from 1997 through 2009 and the agency’s response to all

complaints it received regarding the activities of Stanford’s companies, tracing the path

of these complaints through the Commission from their inception and reviewing what, if

any, investigative or examination work was conducted with respect to the allegations in

the complaints.

                      Results of the OIG’s Stanford Investigation

       The OIG’s investigation determined that the SEC’s Fort Worth office was aware

since 1997 that Robert Allen Stanford was likely operating a Ponzi scheme, having come

to that conclusion a mere two years after Stanford Group Company, Stanford’s

investment adviser, registered with the SEC in 1995. We found that over the next eight

years, the SEC’s Fort Worth Examination group conducted four examinations of

Stanford’s operations, finding in each examination that the certificates of deposit (CDs)

Stanford was promoting could not have been “legitimate,” and that it was “highly

unlikely” that the returns Stanford claimed to generate could have been achieved with the

purported conservative investment approach utilized. The SEC’s Fort Worth examiners

conducted examinations of Stanford in 1997, 1998, 2002 and 2004, concluding in each

instance that Stanford’s CDs were likely a Ponzi scheme or similar fraudulent scheme.

The only significant difference in the examination group’s findings over the years was

that the potential fraud was growing exponentially, from $250 million to $1.5 billion.




                                             6
       The first SEC examination occurred in 1997, just two years after Stanford Group

Company began operations. After reviewing Stanford Group Company’s annual audited

financial statements in 1997, a former branch chief in the Fort Worth Broker-Dealer

Examination group stated that, based simply on her review of the financial statements,

she “became very concerned” about the “extraordinary revenue” from the CDs and

immediately suspected the CD sales were fraudulent. In August 1997, after just six days

of field work in an examination of Stanford, the examiners concluded that Stanford

International Bank’s statements promoting the CDs appeared to be misrepresentations.

The examiners noted that while the CD products were promoted as being safe and secure,

with investments in “investment-grade bonds,” the interest rate, combined with referral

fees of between 11% and 13.75% annually, was simply too high to be achieved through

the purported low-risk investments.

       The branch chief concluded after the 1997 examination was finished that the CDs

declared above-market returns were “absolutely ludicrous” and that the high referral fees

paid for selling the CDs indicated that they were not “legitimate CDs.” The Assistant

District Administrator for the Fort Worth Examination program concurred, noting that

there were “red flags” about Stanford’s operations that caused her to believe Stanford

Group Company was operating a Ponzi scheme, specifically noting the fact that the

interest being paid on these CDs “was significantly higher than what you could get on a

CD in the United States.” She further concluded that it was “highly unlikely” that the

returns Stanford claimed to generate could be achieved with the conservative investment

approach Stanford claimed to be using.




                                            7
       In the SEC’s internal tracking database, where it recorded information about its

examinations, the Broker-Dealer Examination group characterized its conclusion from

the 1997 examination of Stanford Group Company as “Possible misrepresentations.

Possible Ponzi scheme.” Our investigation found that in 1997, the examination staff

determined, as a result of their findings, that an investigation of Stanford by the Fort

Worth Enforcement group was warranted, and referred a copy of their examination report

to the Enforcement group for review and disposition. In fact, when the former Assistant

District Administrator for the Fort Worth Examination program retired in 1997, her

“parting words” to the aforementioned branch chief were to “keep your eye on these

people [referring to Stanford] because this looks like a Ponzi scheme to me and some day

it’s going to blow up.”

       We also found that in June 1998, the Investment Adviser Examination group in

Fort Worth began another examination of Stanford Group Company. This Investment

Adviser examination arrived at the same conclusions that the broker-dealer examination

had reached. The Investment Adviser examiners found very suspicious Stanford’s

“extremely high interest rates and extremely generous compensation” in the form of

annual recurring referral fees, as well as the fact that Stanford Group Company was so

“extremely dependent upon that compensation to conduct its day-to-day operations.”

       In November 2002, the SEC’s Investment Adviser Examination group conducted

yet another examination of Stanford Group Company. In this examination, the staff

identified the same red flags that had been noted in the previous two examinations,

including the fact that “the consistent, above-market reported returns” were “very

unlikely” to be able to be achieved with Stanford’s investments.




                                              8
       The Investment Adviser examiners also found that the list of investors provided

by Stanford Group Company was inaccurate, as the list they received of the CD holders

was inconsistent with the total CDs outstanding based upon referral fees. The examiners

noted that although they did follow up with Stanford Group Company about this

discrepancy, they never obtained “a satisfactory response, and a full list of investors.”

       After the examiners began this third examination of Stanford, the SEC received

multiple complaints from outside entities reinforcing and bolstering the examiners’

suspicions about Stanford’s operations. However, the SEC failed to follow up on these

complaints or take any action to investigate them. On December 5, 2002, the SEC

received a complaint from a citizen of Mexico, who raised the same concerns the

examination staff had raised. While the examiners characterized the concerns expressed

in this complaint as “legitimate,” we found that the SEC did not respond to the complaint

and did not take any action to investigate the claims made therein.

       In 2003, the SEC Enforcement staff received two new complaints that Stanford

was a Ponzi scheme, but we found that nothing was done to pursue either of them. On

August 4, 2003, the SEC was forwarded a letter that discussed several similarities

between a known Ponzi scheme and Stanford’s operations. Then, on October 10, 2003,

the NASD forwarded a letter dated September 1, 2003, from an anonymous Stanford

insider to the SEC’s Office of Investor Education and Advocacy, which stated, in

pertinent part:

                  STANFORD FINANCIAL IS THE SUBJECT OF A
                  LINGERING CORPORATE FRAUD SCANDAL
                  PERPETUATED AS A “MASSIVE PONZI SCHEME”
                  THAT WILL DESTROY THE LIFE SAVINGS OF
                  MANY; DAMAGE THE REPUTATION OF ALL
                  ASSOCIATED PARTIES, RIDICULE SECURITIES



                                              9
               AND BANKING AUTHORITIES, AND SHAME THE
               UNITED STATES OF AMERICA.

       Our investigation found that while this letter was minimally reviewed by various

Enforcement staff, the Enforcement group decided not to open an investigation or even

an inquiry into the complaint. The Enforcement branch chief responsible for the decision

explained his rationale as follows:

               [R]ather than spend a lot of resources on something that
               could end up being something that we could not bring, the
               decision was made to – to not go forward at that time, or at
               least to – to not spend the significant resources and – and
               wait and see if something else would come up.

       In October 2004, the Fort Worth Examination staff conducted a fourth

examination of Stanford Group Company. The examiners once again analyzed the CD

returns using data about the past performance of the equity markets and concluded that

Stanford Group Company’s sales of the CDs violated numerous federal securities laws.

       While the Fort Worth Examination group made multiple efforts after each

examination of Stanford Group Company to convince the Enforcement group to open and

conduct an investigation of Stanford, we found that the Enforcement group made no

meaningful effort to investigate the potential fraud or to consider an action to attempt to

stop it until late 2005. In 1998, the Enforcement group opened a brief inquiry, but then

closed it after only three months, when Stanford failed to produce documents evidencing

fraud in response to a voluntary document request. In 2002, no investigation was opened

even after the examiners specifically identified in an examination report multiple

violations of securities laws by Stanford. In 2003, after receiving the three separate

complaints about Stanford’s operations, the Enforcement group decided not to open up an




                                             10
investigation or even an inquiry, and did not follow up to obtain more information about

the complaints.

       In late 2005, after a change in leadership in the Enforcement group and in

response to the continuing pleas by the Fort Worth examiners, who had been watching

the potential fraud grow in examination after examination, the Enforcement group finally

agreed to seek a formal order from the Commission to investigate Stanford. However,

even at that time, the Enforcement group missed an opportunity to have the SEC bring an

action against Stanford Group Company for its admitted failure to conduct any due

diligence regarding Stanford’s investment portfolio. Such an action could have

potentially halted the sales of the Stanford International Bank CDs though the Stanford

Group Company investment adviser, and would have provided investors and prospective

investors with notice that the SEC considered Stanford Group Company’s sales of the

CDs to be fraudulent. We found that this particular action was not considered, partially

because the new head of the Enforcement group in Fort Worth was not aware of the

findings of the Investment Adviser group’s examinations in 1998 and 2002, or even that

Stanford Group Company had registered as an investment adviser, a fact she learned for

the first time in the course of our investigation in January 2010.

       We did not find that the reluctance of the SEC’s Fort Worth Enforcement group to

investigate Stanford was related to any improper professional, social or financial

relationship on the part of any current or former SEC employee. We found evidence,

however, that SEC-wide institutional influence did factor into the Enforcement group’s

repeated decisions not to undertake a full and thorough investigation of Stanford,

notwithstanding staff awareness that the potential fraud was growing. We found that




                                             11
senior Fort Worth officials perceived that they were being judged on the numbers of

cases they brought, so-called “stats,” and communicated to the Enforcement staff that

novel or complex cases were disfavored. As a result, cases like Stanford, which were not

considered “quick-hit” or “slam-dunk” cases, were not encouraged.

       We also found that a former head of Enforcement in Fort Worth, who played a

significant role in multiple decisions over the years to quash investigations of Stanford,

sought to represent Stanford on three separate occasions after he left the Commission,

and in fact, represented Stanford briefly in 2006 before he was informed by the SEC

Ethics Office that it was improper for him to do so.

       Our investigation revealed that this individual while working at the SEC was

responsible for decisions: (1) in 1998 to close an inquiry opened regarding Stanford after

the 1997 examination; (2) in 2002, in lieu of responding to a complaint or investigating

the issues it raised, to forward it to the Texas State Securities Board; (3) also in 2002, not

to act on the Examination staff’s referral of Stanford for investigation after its Investment

Adviser examination; (4) in 2003, not to investigate Stanford after a complaint was

received comparing Stanford’s operations to a known fraud; (5) also in 2003, not to

investigate Stanford after receiving a complaint from an anonymous insider alleging that

Stanford was engaged in a “massive Ponzi scheme;” and (6) in 2005, to summarily

inform senior Examination staff after a presentation was made on Stanford at a quarterly

summit meeting that Stanford was not a matter they planned to investigate.

       Yet, in June 2005, a mere two months after leaving the SEC, this former head of

the Enforcement group in Fort Worth e-mailed the SEC Ethics Office that he had been

“approached about representing [Stanford] . . . in connection with (what appears to be) a




                                              12
preliminary inquiry by the Fort Worth office.” He further stated, “I am not aware of any

conflicts and I do not remember any matters pending on Stanford while I was at the

Commission.”

       After the SEC Ethics Office denied the former head of Enforcement in Fort

Worth’s June 2005 request, in September 2006, Stanford retained this individual to assist

with inquiries Stanford was receiving from regulatory authorities, including the SEC.

The former head of Enforcement in Fort Worth met with Stanford Financial Group’s

General Counsel in Stanford’s Miami office and billed Stanford for his time on this

representation. In late November 2006, he called his former subordinate, the Assistant

Director working on the Stanford matter in Fort Worth, who asked him during the

conversation, “[C]an you work on this?,” and in fact told him, “I’m not sure you’re able

to work on this.” After this call, the former head of Enforcement in Fort Worth belatedly

sought permission from the SEC’s Ethics Office to represent Stanford. The SEC Ethics

Office replied that he could not represent Stanford for the same reasons given a year

earlier and he discontinued his representation.

       In February 2009, immediately after the SEC sued Stanford, this same former

head of Enforcement in Fort Worth contacted the SEC Ethics Office a third time about

representing Stanford in connection with the SEC matter – this time to defend Stanford

against the lawsuit filed by the SEC. An SEC Ethics official testified that he could not

recall another instance in which a former SEC employee contacted the Ethics Office on

three separate occasions trying to represent a client in the same matter. After the SEC

Ethics Office informed the former head of Enforcement in Fort Worth for a third time

that he could not represent Stanford, he became upset with the decision, arguing that the



                                            13
matter pending in 2009 “was new and was different and unrelated to the matter that had

occurred before he left.” When asked during our investigation why he was so insistent on

representing Stanford, he replied, “Every lawyer in Texas and beyond is going to get rich

over this case. Okay? And I hated being on the sidelines.”

       Based upon this evidence, our investigation determined that the former head of

Enforcement in Fort Worth’s representation of Stanford appeared to violate state bar rules

that prohibit a former government employee from working on matters in which that

individual participated as a government employee.

       In summary, our report of investigation concluded overall that the SEC’s Fort

Worth office was aware since 1997 that Stanford was likely operating a Ponzi scheme

after conducting examination after examination for a period of eight years, but merely

watched the alleged fraud grow, and failed to take any action to stop it.

          Recommendations of the OIG’s Stanford Report of Investigation

       We provided our Report of Investigation on the SEC’s handing of the Stanford

matter to the Chairman of the SEC on March 31, 2010. We recommended that the

Chairman carefully review the Report’s findings and share with Enforcement

management the portions of the Report that related to the performance failures by those

employees who still work at the SEC, so that appropriate action (which may include

performance-based action, if applicable) would be taken, on an employee-by-employee

basis, to ensure that future decisions about when to open an investigation and when to

recommend that the Commission take action are made in a more appropriate and timely

manner.




                                            14
        We also made numerous recommendations to improve the operations of several

divisions and offices within the SEC. Specifically, we recommended that:

        (1)     Enforcement ensure that the potential harm to investors if no action is

taken is considered as a factor when deciding whether to recommend an enforcement

action, including consideration of whether this factor, in certain situations, outweighs

other factors such as litigation risk;

        (2)     Enforcement emphasize the significance of bringing cases that are

difficult, but important to the protection of investors, in evaluating the performance of an

Enforcement staff member or a regional office;

        (3)     Enforcement consider the significance of the presence or absence of

United States investors in determining whether to open an investigation or recommend an

enforcement action that otherwise meets jurisdictional requirements;

        (4)     There be improved coordination between the Enforcement and OCIE on

investigations, particularly those investigations initiated by an OCIE referral to

Enforcement;

        (5)     Enforcement re-evaluate the factors utilized to determine when referral of

a matter to state securities regulators, in lieu of an SEC investigation, is appropriate;

        (6)     There be additional training of Enforcement staff to strengthen their

understanding of the laws governing broker-dealers and investment advisers; and

        (7)     Enforcement emphasize the need to coordinate with the Office of

International Affairs and the Division of Risk, Strategy, and Financial Innovation, as

appropriate, early in the course of investigations.




                                              15
       We also referred our Report of Investigation to the Commission’s Ethics Counsel

for referral to the Bar Counsel offices in the two states in which the former head of

Enforcement in Fort Worth was admitted to practice law.


                            Follow-up on Recommendations

       My Office is committed to following up with respect to all of the

recommendations made in our Stanford report to ensure that appropriate changes and

improvements are made in the SEC’s operations as a result of our findings. We are

aware that many improvements have already been undertaken under the direction of

Chairman Schapiro and Enforcement Director Khuzami as a result of the findings and

many recommendations we made as a result of our Madoff investigation. We note that

Enforcement has indicated that it has taken action on the recommendations of our

Stanford report, and we are in the process of reviewing those actions to ensure that they

are adequate and fully address the OIG’s concerns. We are confident that under

Chairman Schapiro’s leadership, the SEC will carefully take the appropriate steps to

implement fully our Stanford recommendations and ensure that fundamental changes are

made in the SEC’s operations so that the errors and failings we found in our investigation

are properly remedied and not repeated in the future.

                     Similarities to Failures in the Madoff Matter

       While my Office has not conducted any formal analysis of similarities between

the findings in our Madoff and Stanford reports, we have identified some striking

parallels between the two situations. First, in both cases, the SEC received credible and

substantive complaints about possible fraud, but failed to follow up appropriately on

these complaints. Second, in both the Madoff and Stanford matters, the SEC had in its



                                            16
possession ample evidence of potential fraud, which should have triggered thorough and

comprehensive Enforcement investigations and actions. Third, and most unfortunately,

in both situations, prompt and effective action on the part of the SEC could have

potentially uncovered fraud and prevented investors from losing billions of dollars.

       Our Office intends to remain vigilant to ensure that the SEC benefits from the

lessons learned as a result of its failures in both these cases and makes the necessary

improvements to ensure that such failures do not occur again in the future.

                                        Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member and

the Committee in the SEC and my Office and, in particular, in the facts and

circumstances pertinent to our Stanford report. I believe that the Committee’s and

Congress’s continued involvement with the SEC is helpful to strengthen the

accountability and effectiveness of the Commission. Thank you.




                                             17
